Case: 18-2950

Document: 67

Page: 1

Date Filed: 07/02/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 18-2950
WIN MIN HTUT,
Appellant
v.

SUPERINTENDENT FAYETTE SCI; ATTORNEY GENERAL PENNSYLVANIA
(D.C.No. 5-17-cv-04021)
SUR PETITION FOR REHEARING
Before: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS and SCIRICA,* Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ L. Felipe Restrepo
Circuit Judge
Dated: July 2, 2020
Lmr/cc: Win Min Htut
Ronald Eisenberg

* Judge Scirica’s vote is limited to panel rehearing only.

Case: 18-2950

Document: 65-2

Page: 1

Date Filed: 04/30/2020

November 19,2019
May 9, 2019
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

* RESUBMIT CLD-179

C.A. No. 18-2950
WIN MIN HTUT, Appellant
VS.
SUPERINTENDENT FAYETTE SCI, et al.
(E.D. Pa. Civ. No. 17-cv-04021)
Present:

CHAGARES, RESTREPO and SCIRICA, Circuit Judges
Submitted are:
(1)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1);

*(2)

Appellant’s Response to the Clerk’s Order dated October 8,
2019; and

*(3)

Appellee’s Response to the Clerk’s Order dated October 8, 2019

in the above-captioned case.
Respectfully,
Clerk
ORDER
The foregoing responses are considered. The application for a certificate of appealability
is denied. In pleading guilty, Htut waived his right to collaterally challenge his sentence.
Jurists of reason would not debate “the District Court’s application of AEDPA deference,
as stated in §§ 2254(d)(2) and (e)(1)” see Miller-El v. Cockrell. 537 U.S. 322, 341
(2003), to Htut’s claim that the state courts erred in determining that the collateral attack

Case: 18-2950

Document: 65-2

Page: 2

Date Filed: 04/30/2020

waiver in his plea agreement was entered into “knowingly and voluntarily,” see United
States v. Fazio. 795 F.3d 421, 425 (3d Cir. 2015). Jurists of reason also would not debate
whether enforcement of Htut’s collateral attack waiver would work a miscarriage of
justice. See Fazio. 795 at 426.
By the Court,
s/ L. Felipe Restrepo
Circuit Judge
Dated: April 30, 2020
Lmr/cc: Win Min Htut
Ronald Eisenberg
Heather F. Gallagher

A True Copy: °

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case: 18-2950

Document: 003113368761

Page: 1

Date Filed: 10/08/2019

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 18-2950

Htut v. Superintendent Fayette SCI

ORDER

By order dated June 12, 2019, the above-captioned appeal was stayed pending a
decision by this Court in United States v. Tamai. C.A. No. 17-1330. As the mandate
issued in Tamai on October 3, 2019, it is hereby ORDERED that the stay is lifted. The
parties shall file written responses, within twenty-one (21) days of this order, addressing
the effect, if any, of the decision in Tamai on the question of whether a certificate of
appealability should issue in the present appeal.

For the Court,
s/ Patricia S. Dodszuweit
Clerk
Dated: October 8, 2019
DWB/arr/cc: WMH; RE

WIN MIN HTUT. Petitioner, v. JAY LANE, THE DISTRICT ATTORNEY OF THE COUNTY OF LEHIGH,
and THE ATTORNEY GENERAL OF THE STATE OF PENNSYLVANIA, Respondents.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF PENNSYLVANIA
2018 U.S. Dist. LEXIS 231119
CIVIL ACTION NO. 17-4021
August 9, 2018, Decided
August 9, 2018, Filed
Editorial Information: Prior History
Win Min Htut v. Capozza, 2018 U.S. Dist. LEXIS 119988 (E.D. Pa., July 17, 2018)
{2018 U.S. Dist. LEXIS 1lWin Min Htut. Petitioner, La Belle, PA USA,
For The District Attorney of The County of Lehigh, Respondent:
HEATHER F. GALLAGHER, LEHIGH COUNTY DISTRICT ATTY'S OFFICE, Allentown, PA
USA.
Judges: EDWARD G. SMITH, Judge.
Counsel

Opinion
Opinion by:

EDWARD G. SMITH *
Opinion

ORDER
AND NOW, this 9th day of August, 2018, after considering the petition for writ of habeas corpus filed
by the pro se petitioner, Win Min Htut ("Htut") (Doc. No. 1), the response in opposition to the petition
filed by the respondents (Doc. No. 7), the additional information attached to Htut's motion for this court
to consider further argument (Doc. No. 13), the state-court record, United States Magistrate Judge
Lynne Sitarski's report and recommendation (Doc. No. 14), Htut's motion to extend the time to file
objections to Magistrate Judge Sitarski's July 17, 2018 report and recommendation (Doc. No. 17), and
Htut's timely objections to the report and recommendation (Doc. No. 19); accordingly, it is hereby
ORDERED as follows:
1. The clerk of court is DIRECTED to remove this action from civil suspense and RETURN it to the
court's active docket;
2. Htut's motion to extend the time to file objections to Magistrate Judge Sitarski's July 17, 2018 report
and recommendation{2018 U.S. Dist. LEXIS 2} (Doc. No. 17) is DENIED AS MOOT;
3. Htut's objections to the report and recommendation (Doc. No. 19) are OVERRULED; 1
4. The Honorable Lynne Sitarski's report and recommendation (Doc: No. 14) is APPROVED and
ADOPTED;
5. Htut's petition for writ of habeas corpus (Doc. No. 1), as amended by the article attached to the
motion for the court to consider further argument (Doc. No. 13), see July 17, 2018 Order (Judge
Sitarski's order granting the motion and considering the article), is DENIED;

lyccases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

6. Htut has not made a substantial showing of the denial of a constitutional right and is therefore not
entitled to a certificate of appealability, 28 U.S.C. § 2253(c)(2); and
7. The clerk{2018 U.S. Dist. LEXIS 3} of court shall mark this case as CLOSED.
BY THE COURT:
Is/ Edward G. Smith
EDWARD G. SMITH, J.
Footnotes

1
The court conducts a de novo review and determination of the portions of the report and
recommendation by the magistrate judge to which there are objections. See 28 U.S.C. § 636(b)(1) ("A
judge of the court shall make a de novo determination of those portions of the report or specified
proposed findings or recommendations to which objection is made."); see also E.D. Pa. Loc. R. Civ.
P. 72.1 (IV)(b) (providing requirements for filing objections to magistrate judge's proposed findings,
recommendations or report).
In the objections, Htut contends that Magistrate Judge Sitarski failed to consider whether his waiver of
appeal rights was intelligent. See Objs. to Magistrate Judge Sitarski's Report and Recommendation
("Objs.") at 2, Doc. No. 17-1. He believes the waiver could not have possibly been intelligent because
it required him to waive claims before he knew they existed. See id. at 4-5. Contrary to Htut's
contention, Judge Sitarski did address this argument in her report and recommendation.
Specifically, Judge Sitarski noted that
[tjhe Third Circuit rejected a similar argument in Khattak. There, the Third Circuit rejected the
<
argument that "waiver-of-appeal provisions are void as contrary to public policy, because
defendants cannot ever knowingly and voluntarily waive their rights to appeal future errors." The
Third Circuit observed that "[wjaivers of the legal consequences of unknown future events are
commonplace."Report and Recommendation ("R. & R.") at 16 n.1 (internal citations omitted)*:
(citing United States v. Khattak, 273 F.3d 557, 561 (3d Cir. 2001)), Doc. No. 14. While Judge
Sitarski does not frame this discussion as an "intelligence" inquiry (she frames it as a knowing and
voluntary inquiry), she fully addresses the substance of Htut's objection.
Htut's argument-that his waiver could not have possibly been intelligent because he did not know (or
could not have known) what claims he was giving up in the future-is not persuasive for an additional
reason. As noted in Khattak, individuals often gain more favorable sentences in exchange for waiving
future rights. See Khattak, 273 F.3d at 562 ("Khattak's argument ignores that waivers of appeals may
assist defendants in making favorable plea bargains.") It is entirely possible that an individual could
intelligently relinquish unknown future rights to obtain a better plea bargain. In fact, as noted by Judge
Sitarski, this is exactly what happened here; the government did not pursue the death penalty because
Htut waived his appellate rights. See R. & R. at 10.
Additionally, Htut's attempts to distinguish Khattak are unavailing. Htut contends that "the
atmospherics surrounding Khattak and Petitioner's case are totally inapposite." See Objs. at 3.
Unfortunately for Htut, these atmospherics, while present, are not legally significant. Htut correctly
notes that the rights the petitioner in Khattak waived are different from those he waived here. See id.;

lyccases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

;■ 'i

Khattak, 273 F.3d at 561. While these rights were different, the legal principle developed in Khattak is
fully applicable here. The petitioner in Khattak waived claims before he knew they existed and he
subsequently contended that his waiver of these claims could not have possibly been intelligent. See
Khattak, 273 F.3d at 560-63. Here, Htut advances almost the exact same legal argument. See Objs.
at 3-4. This argument did not succeed in Khattak and it does not succeed here either. See Khattak,
273 F.3d at 560-63.
Htut raises two other arguments. First, Htut references United States v. Melancon, 972 F.2d 566 (5th
Cir. 1992), as support for the principle that '"a defendant can [never] knowingly and intelligently waive .
.. the right to appeal a sentence that has yet to be imposed at the time he or she enters into the plea
agreement. . . Objs. at 6 (quoting Melancon, 972 F.2d at 570). This quote is taken from the
concurrence in Melancon. See Melancon, 972 F.2d at 570 (Parker, J., concurring). The author of the
concurrence disagreed with the outcome the majority reached, but felt that he could not dissent
because the panel was bound by a prior Fifth Circuit decision. See id. He concurred specifically to
announce his disagreement with the outcome of the case. See id. ("I concur specially because I
cannot dissent."). This out-of-circuit disagreement is insufficient for this court to turn away the binding
decision in Khattak.
Second, Htut cites to a smattering of due process cases for the principle that a plea should be
knowing, intelligent, and voluntary. See Objs. at 7. These cases are no more availing to Htut than the
concurrence in Melancon. The legal principles espoused in these cases were well established at the
time the Third Circuit decided Khattak and with full knowledge of these requirements, the Third Circuit
upheld the waiver of appellate rights. Thus, these cases do not provide the court with a reason tq veer
from Khattak.
For these reasons, and for the reasons stated in Judge Sitarski's report and recommendation, the
court overrules the objections and denies the petition for habeas relief.

lyccases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

"

)
f •-

WIN MIN HTUT. Petitioner, v. MARK CAP0ZZA.1 et al., Respondents.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF PENNSYLVANIA
2018 U.S. Dist. LEXIS 119988
CIVIL ACTION NO. 17-CV-4021
July 17, 2018, Decided
July 17, 2018, Filed
Editorial Information: Subsequent History
Adopted by, Motion denied by, As moot, Objection overruled by, Writ of habeas corpus denied, Certificate
of appealability denied Htut v. Lane, 2018 U.S. Dist. LEXIS 231119 (E.D. Pa., Aug. 9, 2018)
Editorial Information: Prior History

-

Commonwealth v. Win Min Htut. 161 A.3d 375, 2017 Pa. Super. Unpub. LEXIS 536 (Feb. 13, 2017)
{2018 U.S. Dist. LEXIS 11WIN MIN HTUT. Petitioner, Pro se, LA BELLE,

Counsel
PA.

For THE DISTRICT ATTORNEY OF THE COUNTY OF LEHIGH
Respondent: HEATHER F. GALLAGHER, LEHIGH COUNTY DISTRICT ATTY'S OFFICE
ALLENTOWN, PA.
Judges: LYNNE A. SITARSKI, UNITED STATES MAGISTRATE JUDGE.
Opinion
Opinion by:

LYNNE A. SITARSKI
Opinion

REPORT AND RECOMMENDATION
LYNNE A. SITARSKI
UNITED STATES MAGISTRATE JUDGE
Presently before the Court is a pro se Petition for Writ of Habeas Corpus filed pursuant to 28 U.S.C. §
2254 by Win Min Htut ("Petitioner"), an individual currently incarcerated at the State Correctional
Institution - Fayette located in LaBelle, Pennsylvania. This matter has been referred to me for a Report
and Recommendation. For the following reasons, I respectfully recommend that the petition for
habeas corpus be DENIED.
I. PROCEDURAL BACKGROUND2
*;

The Court of Common Plea of Lehigh County provided the following recitation of the facts:
On December 17, 2013, the victim, Thida Myint, secured a final [Protection From Abuse ("PFA")]
order, which excluded [Petitioner] from 319 Central Park Avenue in the City of Bethlehem. That
afternoon, the Bethlehem Police responded to that address after [Petitioner's] sixteen (16) year
old daughter reported that [Petitioner],{2018 U.S. Dist. LEXIS 2} who was armed, shot her
mother.

lyccases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

s-.

I
>•

Upon their arrival, the police found Thida Myint lying in the middle of the street with a bullet wound
to her head. By her side were two of her three children, the sixteen (16) year old daughter and an
eleven (11) year old son. The three (3) year old daughter, Nicole, was missing. Within a short
period of time, [Petitioner] was located with Nicole, who was unharmed, by the Allentown Police
Department. He was immediately taken into custody. One of the officers, without full knowledge of
the events, asked [Petitioner] if the child's mother would be coming for Nicole. [Petitioner] said
"no, because I shot her."
The children were interviewed and told the investigators that after lunch they returned home and
"put a chair underneath the front door because at the time the family was afraid of
[Petitioner]." [Petitioner] arrived at the residence, however, and forced his way into the home.
[Petitioner] had a firearm in his hand and began threatening the family. Thida Myint grabbed
Nicole and fled the home, as did the other children, but she fell to the ground as [Petitioner]
pursued her. He then took Nicole, and shot Thida Myint in the head. [Petitioner] discarded{2018
U.S. Dist. LEXIS 3} the firearm, which was later located in a sewer grate near the residence.
[Petitioner] was interviewed and admitted that he was present in the courtroom when the PFA
order was issued. He was aware that he was prohibited from being at the residence or having any
contact with the family. He was also aware that he was not allowed to possess a firearm.
He told the investigators that he disregarded the order, entered the residence, and after finding no
one home, he went to his parents' home and retrieved the firearm. He returned to the residence
with a female companion. He claimed that he intended to threaten his wife, and then kill himself.
Instead, he unlawfully entered the home, pursued his wife, and then killed her. He claimed the gun
"went off, but other evidence that was uncovered shows that [Petitioner] had recently used the
weapon at a gun range. [Petitioner], during the sentencing proceeding, stated, "[i]f she don't come
to court and not lying about the PFA all these things wouldn't happen."Commonwealth v. Htut, No.
CP-39-CR-0000308-2014, 2016 Pa. Dist. & Cnty. Dec. LEXIS 4, *5-7, (Lehigh Cnty. Com. PI. Feb.
18, 2016) (citations omitted) [hereinafter "PCRA 1925(a) Op."]. On September 2, 2014, Petitioner
pleaded guilty to second degree murder, 18 Pa. Cons. Stat. § 2502(b), and was sentenced{2018
U.S. Dist. LEXIS 4} to life imprisonment. Crim. Docket at 3, 10-11. Petitioner's plea agreement
contained a waiver of appellate rights, in which Petitioner agreed not to file any direct or collateral
appeal in state or federal court. (Ex. A to Resp. to Pet., ECF No. 7 [hereinafter "Waiver of App.
Rights"]).
On August 3, 2015, Petitioner filed a pro se petition for relief under Pennsylvania's Post-Conviction
Relief Act, 42 Pa. Cons. Stat. §§ 9541, etseq. ("PCRA"). Crim. Docket at 12; (Pet. for Post-Conviction
Relief, SCR No. 26). Counsel was appointed and filed an amended petition on Petitioner's behalf,
raising the following claim:
Petitioner's plea was not knowing, voluntary, or intelligent for the following reasons:
a. Counsel incorrectly told petitioner that if he went to trial his home and property would be seized
whether or not he was successful in defending himself, thereby leaving his children with no place
to live;
b. Trial Counsel was ineffective for talking the defendant into pleading guilty rather than
considering possible defenses or preparing for trial by telling him that if he went to trial he would
be found guilty of capital murder and receive[ ] the death penalty;
c. Trial counsel was ineffective by allowing the defendant to plead guilty to murder in the second
degree{2018 U.S. Dist. LEXIS 5} when the facts recited in the guilty plea colloquy failed to

lyccases

2

©2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

w

support that charge;
d. Trial counsel was ineffective by failing to adequately inform the defendant! ] of the elements of
the charges he pled guilty to and the facts of the case prior to his guilty plea;
f-

i

*-

e. Trial counsel was ineffective for failing to interview and investigate potential character
witnesses;
f. Trial counsel was ineffective by failing to adequately prepare for trial by failing to investigate
possible exculpatory witnesses.Crim. Docket at 12; (Am. PCRA Pet. 5, SCR No. 28). Following
a hearing to determine the enforceability of Petitioner's waiver of appellate rights, the amended
petition was denied on January 5, 2016. Crim. Docket at 14; PCRA 1925(a) Op., 2016 Pa. Dist. &
Cnty. Dec’ LEXIS 4 at *7; (Order, SCR No. 36). Petitioner filed a counseled notice of appeal to the
Superior Court. Crim. Docket at 14. Thereafter, his counsel filed a no-merit brief and motion to
withdraw as counsel, to which
Petitioner filed a pro se response.3 Commonwealth v. Win Min Htut, 161 A.3d 375, 2017 Pa. Super.
Unpub. LEXIS 536, *3 (Pa. Super. 2017). On February 13, 2017, the Superior Court affirmed the
PCRA Court's decision and granted counsel's motion to withdraw. 2017 Pa. Super. Unpub. LEXIS 536
at *8. Petitioner filed a petition for allowance of appeal in the Pennsylvania Supreme, Court, which was
denied on August 28, 2017. Crim. Docket at 16; Commonwealth v. Htut, 170 A.3d 1012 (Pa. 2017).
On September 1, 2017,4 Petitioner filed a pro se petition for writ of habeas corpus, raising the
following claims:
(1) Petitioner entered into a plea that was not voluntary, intelligent, or knowingly given[.]
(2) The written waiver of appeal rights colloquy that Petitioner entered into is, nonsensical,
unworkable, and does not comport with the United States Constitution.
(3) The PCRA Court's ruling resulted in a fundamental miscarriage of justice where the waiver
itself was the result of counsel's ineffectiveness in negotiating the plea agreement containing the
waiver.
(4) Petitioner guilty plea was not knowingly, voluntarily, or intelligently given and he was denied the
effective assistance of counsel as guaranteed under the United States and Pennsylvania
Constitutions, when counsel gave legally incorrect advice.(Hab. Pet. 7, 9-10, 12-13, 14-15, ECF
No. 1).
The petition was assigned to the Honorable Edward G. Smith, who referred it to the undersigned for a
Report and Recommendation. (Order, ECF No. 2). The Commonwealth filed a Response, and
Petitioner filed a Traverse. (Resp. to Pet., ECF No. 7; Traverse, ECF No. 12). That matter is fuily
briefed and{2018 U.S. Dist. LEXIS 7} ripe for disposition.
II. LEGAL STANDARDS
The AEDPA increased the deference federal courts must give to the factual findings and legal
determinations of the state courts. Woodford v. Visciotti, 537 U.S. 19, 24, 123 S. Ct. 357, 154 L. Ed.
2d 279 (2002); Werts v. Vaughn, 228 F.3d 178, 196 (3d Cir. 2000). Pursuant to 28 U.S.C. § 2254(d),
as amended by the AEDPA, a petition for habeas corpus may be granted only if: (1) the state court's
adjudication of the claim resulted in a decision contrary to, or involved an unreasonable application of,
"clearly established Federal law, as determined by the Supreme Court of United States;" or (2) the
adjudication resulted in a decision that was "based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding." 28 U.S.C. § 2254(d)(1 )-(2). Factual
issues determined by a state court are presumed to be correct, and the petitioner bears the burden of

lyccases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

rebutting this presumption by clear and convincing evidence. Weds, 228 F.3d at 196 (citing 28 U.S.C.

§ 2254(e)(1)).

x

The Supreme Court has explained that, "[u]nder the 'contrary to' clause, a federal habeas court may
grant the writ if the state court arrives at a conclusion opposite to that reached by [the Supreme] Court
on a question of law, or if the state court decides a case differently than [the Supreme] Court has on a
set of materially indistinguishable facts." Williams v. Taylor, 529 U.S. 362, 412-13, 120 S. Ct. 1495,
146 L. Ed. 2d 389 (2000); see{2018 U.S. Dist. LEXIS 8} also Hameen v. State of Delaware, 212 F.3d
226, 235 (3d Cir. 2000). "Under the 'unreasonable application' clause, a federal habeas court may
grant the writ if the state court identifies the correct legal principle from [the Supreme] Court's
decisions but unreasonably applies that principle to the facts of the prisoner's case." Williams, 529
U.S. at 413. The "unreasonable application" inquiry requires the habeas court to "ask whether the
state court's application of clearly established federal law was objectively unreasonable." Hameen,
212 F.3d at 235 (citation omitted). "In further delineating the 'unreasonable application of component,
the Supreme Court stressed that an unreasonable application of federal law is different from an
incorrect application of such law and a federal habeas court may not grant relief unless that court
determines that a state court's incorrect or erroneous application of clearly established federal law
was also unreasonable." Werts, 228 F.3d at 196 (citation omitted).
III. DISCUSSION
In Claims One, Three, and Four, Petitioner avers that his plea was not voluntary, intelligent, or
knowing due to counsel's ineffectiveness.5 (Hab. Pet. 7,15, ECF No. 1; Mem. of Law 6-7, ECF No.
1-1). In Claim Two, Petitioner argues the appellate rights waiver is "nonsensical, unworkable, and fi
does not comport{2018 U.S. Dist. LEXIS 9} with the United States Constitution," and "has resulted in
a miscarriage of justice." (Mem. of Law 53-57, ECF No. 1; Mem. of Law 1-2, ECF No. 1-1). The
Commonwealth counters that Petitioner's waiver precludes the instant habeas petition, that the waiver
was knowing and intelligent, and enforcing the waiver will not result in a miscarriage of justice. (Resp.
to Pet. 8-20, ECF No. 1). As will be discussed in moVe detail below, the Court finds that the waiver is
enforceable.6
A. Enforcement of Collateral Appeal Waiver
Waivers of appellate rights contained in guilty plea agreements are valid if entered into knowingly and
voluntarily, and if their enforcement does not work a miscarriage of justice. United States v. Mabry,
536 F.3d 231, 237 (3d Cir. 2008); United States v. Khattak, 273 F.3d 557, 562-63 (3d Cir. 2001). The
language of the waiver is to be "strictly construe[d]," and if "the waiver applies by its terms, it is the
defendant's burden to show the waiver should not be enforced." United States v. Morrison, 282 F.
App'x 169, 171 (3d Cir. 2008) (not precedential).
"A waiver of the right to appeal includes a waiver of the right to appeal difficult or debatable legal
issues-indeed, it includes a waiver of the right to appeal blatant error." Khattak, 273 F.3d at 562
(quoting United States v. Howie, 166 F.3d 1166, 1169 (11th Cir. 1999)). The Third Circuit has
observed that such waivers "preserve the finality of judgments and sentences imposed." Id. at 561
(quoting{2018 U.S. Dist. LEXIS 10} United States v. Rutan, 956 F.2d 827, 829 (8th Cir. 1992)).
Permitting defendants "to retract waivers would prolong litigation, affording defendants the benefits of
their agreements while shielding them from their self-imposed burdens." Id.
These principles apply to both waivers of appellate rights and waivers of rights to seek collateral
review, including federal habeas review. See Mabry, 536 F.3d at 238 n.6 (noting the inquiry into the
validity of an appellate waiver and a waiver in a collateral challenge "is the same"); see generally id.
(enforcing waiver of collateral review). Courts in this jurisdiction have upheld collateral appeal waivers,

lyccases

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

!

(

r..
A

where it is determined that the waiver was knowing and voluntary, and the petitioner has not
established a miscarriage of justice. See, e.g., Glass v. Lane, No. 16-154, 2017 U.S. Dist. LEXIS
121022, 2017 WL 4214145, at *1 (E.D. Pa. July 31,2017), report and recommendation adopted, No.
16-154, 2017 U.S. Dist. LEXIS 153955, 2017 WL 4179724 (E.D. Pa. Sept. 21, 2017), certificate of
appealability denied, No. 17-3308, 2018 U.S. App. LEXIS 21253, 2018 WL 1968081 (3d Cir. Mar. 23,
2018) (merits review of § 2254 petition foreclosed by knowing and voluntary waiver of appellate rights
in guilty plea agreement, and petitioner had not established miscarriage of justice); Swinson v.
Pennsylvania, 2008 U.S. Dist. LEXIS 117342, No. 2008 WL 4790608 (E.D. Pa. Oct. 31, 2008) (same);
Watts v. Wilson, No. 07-2820, 2008 U.S. Dist. LEXIS 121493, 2008 WL 5094251 (E.D. Pa. June 27,
2008), report and recommendation adopted, No. 07-2820, 2008 U.S. Dist. LEXIS 96153, 2008 WL
5000277 (E.D. Pa. Nov. 25, 2008) (same).
1. Knowing and Voluntary
The purpose of the '"knowing and voluntary' inquiry ... is to determine whether the defendant{2018
U.S. Dist. LEXIS 11} actually does understand the significance and consequences of a particular
decision and whether the decision is uncoerced." Godinez v. Moran, 509 U.S. 389, 401 n.12, 113 S.
Ct. 2680, 125 L. Ed. 2d 321 (1993). In United States v. Mabry, the Third Circuit found a waiver
knowing and voluntary when:
The written plea agreement here clearly provides that the waiver is very broad, admits of no
exceptions, and applies to both direct and collateral challenge rights. Counsel explained the
waiver to Mabry and Mabry signed it, acknowledging that he understood the terms of the
agreement.
. . . Having scrutinized the colloquy ... we are satisfied that the district court "inform[ed] the
defendant of, and determine^] that the defendant understood]... the terms of any
plea-agreement provision waiving the right to appeal or to collaterally attack the sentence"....
Before the court accepted the plea agreement, it assured itself that Mabry had not been coerced
or misled in any way into entering into the agreement. The court explained the waiver at some
length, Mabry responded directly to the court's questions, the prosecution reviewed the waiver
with the defendant in open court, and defense counsel was permitted to explain further.Mabry,
536 F.3d at 238-39.
The Court finds the waiver here was also entered{2018 U.S. Dist. LEXIS 12} into knowingly and
voluntarily. The PCRA Court explained that although Petitioner asserted the "waiver of appeal rights
was presented to him at the 'very last minute,"' the waiver document itself showed that Petitioner
signed the document on August 26, 2014, seven days before he entered his guilty plea. PCRA
1925(a) Op., 2016 Pa. Dist. & Cnty. Dec. LEXIS 4 at *8. Petitioner also conceded that trial counsel
read the waiver document to him. Id. Although Petitioner contended that he refused to sign the waiver
form on two occasions, trial counsel testified at the PCRA hearing that Petitioner never objected to
signing the document: Counsel testified:
That never happened. If he had ever done that, first of all, I would not have gone forward with it. If
there was any doubt in my mind that he was hesitant to sign the waiver of appellate rights, I would
not have gone forward. Period.Id. (citing N.T. 01/05/16 at 70-71). Moreover, Petitioner never
objected to the waiver of appellate rights during the guilty plea proceeding. Id. The PCRA Court
found that trial counsel's testimony was "credible and consistent," and Petitioner "provided an
untrustworthy version of the proceedings." Id.
The PCRA Court further explained, "PCRA counsel .{2018 U.S. Dist. LEXIS 13} . . suggests that
although [Petitioner] signed the waiver colloquy, trial counsel was somehow ineffective because he

lyccases

5

©2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

either did not use the magic words PCRA, or did not explain to [Petitioner] his right to file a PCRA.
This is, at best, sophistry[.]" 2016 Pa. Dist. & Cnty. Dec. LEXIS 4 at *12. Trial counsel testified that he
explained the Written Waiver of Appeal Rights Colloquy form in detail; he testified that he "read every
word, every line, and stopped after each line to make surefPetitioner] understood what [counsel] was
saying to him . . . and after each number, and [counsel] went through everything with [Petitioner] and
[Petitioner] understood everything." 2016 Pa. Dist. & Cnty. Dec. LEXIS 4 at *9 (citing N.T. 01/05/16 at
53-54, 59-60). The PCRA Court also noted that the waiver document spells out in clear terms
Petitioner's reciprocal agreement "not to seek or file or have filed on [his] behalf, any direct [or]
collateral appeals of [his] conviction, sentence, or this agreement to the appellate courts of
Pennsylvania ..." upon the Commonwealth's agreement not to seek the death penalty. 2016 Pa. Dist.
& Cnty. Dec. LEXIS 4 at *13. The waiver document explained that collateral appeals include "request
for relief under the state Post Conviction Relief Act" and tracked the language of the PCRA
statute.{2018 U.S. Dist. LEXIS 14} Id. The PCRA Court found Petitioner was "fully aware of the global
nature of his waiver of appeal rights, and that 'no other court would review his case' when he signed
the waiver document." 2016 Pa. Dist. & Cnty. Dec. LEXIS 4 at *14.
On PCRA appeal, the Superior Court found the oral and written guilty plea colloquies and written
waiver colloquy supported the PCRA Court's credibility findings. Htut, 2017 Pa. Super. Unpub. LEXIS
536 at *7. The Superior Court also rejected Petitioner's claim that when he signed the waiver form, he
was unaware that he was forfeiting his right to file a PCRA petition. Id. The Superior Court found "that
plea counsel need not have used the acronym 'PCRA' while explaining the waiver form to [Petitioner]."
Id. That form "clearly stated that [Petitioner] was 'giving up his right to make allegations, including but
not limited to, asserting that [his] conviction or sentence resulted from' a constitutional violation,
ineffective assistance of counsel, or an unlawfully induced guilty plea." Id. The form also stated that
"no other court will review [Petitioner's] case after today." 2017 Pa. Super. Unpub. LEXIS 536 at *8.
Trial counsel credibly testified that he read and explained the entire waiver form to Petitioner, and that
Petitioner understood it. 2017 Pa. Super. Unpub. LEXIS 536 at *8. The Superior{2018 U.S. Dist.
LEXIS 15} Court concluded, "The record supports the PCRA court's determination that [Petitioner's]
waiver of his appeal and post-conviction rights, including his right to file the instant PCRA petition, was
knowing and voluntary." Id. Thus, the Superior Court found the PCRA Court properly dismissed his
PCRA petition. Id.
Whether the state courts' finding that Petitioner's waiver was knowing and voluntary is entitled to (
deference under 28 U.S.C. § 2254(d) is not entirely clear. See, e.g., Glass, 2017 U.S. Dist. LEXIS
121022, 2017 WL 4214145, at *10; Swinson, 2008 U.S. Dist. LEXIS 117342, 2008 WL 4790608, at
*5-6. Section 2254(d) applies to "any claim that Was adjudicated on the merits." In Fahy v. Horn, the
Third Circuit found the state courts' determination that the petitioner's waiver was valid was not
entitled to deference when "resolution of the question as to whether [petitioner's] waiver was valid will
not entitle him to relief on the merits of his habeas petition" and therefore, "the waiver question [was]
not a 'claim.'" 516 F.3d 169, 180 (3d Cir. 2008); see also id. (defining "claim" as "that which, if granted,
provides entitlement to relief on the merits"). However, the waiver issue in Fahy was raised in a
procedurally different context than the waiver issue here; the petitioner there waived his right to
collateral review during the pendency of his PCRA proceeding. See{2018 U.S. Dist. LEXIS 16} id. at
177. Unlike Fahy, Petitioner's case involves a waiver of collateral review rights and a negotiated guilty
plea, and a finding that the waiver is invalid "may provide [petitioner] entitlement to habeas relief
based on an invalid guilty plea." Swinson, 2008 U.S. Dist. LEXIS 117342, 2008 WL 4790608, at *6;
see also Glass, 2017 U.S. Dist. LEXIS 121022, 2017 WL 4214145, at *10 n.18 ("[T]he validity of the
waiver would determine entitlement to relief.").
In any event, "even assuming that the state court's ultimate findings on the validity of petitioner's

lyccases

6

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

waiver and plea are not entitled to deference under § 2254(d), the underlying explicit and implicit
factual findings upon which the state court based its conclusions must be afforded a presumption of
correctness under § 2254(e)(1)," where the petitioner has failed to rebut the presumption with "clear
and convincing evidence." Swinson, 2008 U.S. Dist. LEXIS 117342, 2008 WL 4790608, at *7 (quoting
28 U.S.C. § 2254(e)(1)); see also Glass, 2017 U.S. Dist. LEXIS 121022, 2017 WL 4214145, at *10.
Accordingly, the state courts' findings that counsel fully explained the waiver to Petitioner, and that
Petitioner understood the waiver, support a finding that Petitioner's waiver was knowing and
voluntary.7
Moreover, an independent review of the record reflects that Petitioner's waiver was knowing and
voluntary. Seven days before entering his guilty plea, Petitioner signed the Written Waiver of Appeal
Rights Colloquy, and agreed to "forever{2018 U.S. Dist. LEXIS 17) giv[e] up" his rights to file a direct
or collateral appeal. The waiver provided, inter alia, that: Petitioner would never seek a direct or
collateral appeal, including "a request for writ of habeas corpus from a federal court"; that Petitioner
was "forever" giving up his right to request habeas review by a federal judge; "that no other court will
review [his] case after today"; and that he would never file any claims of ineffective assistance of
counsel, trial court error, or prosecutorial misconduct. (Waiver of App. Rights H 6, ECF No. 7).
Additionally, the trial court conducted a detailed and thorough colloquy at Petitioner's guilty plea
hearing. Specifically, the trial court asked whether Petitioner can speak English and the extent to
which he can do so.8 (N.T. 09/02/14 at 5-7). Petitioner explained that he speaks English "in ordinary
forms," and that he sufficiently understood his conversations with his attorney. (Id. at 6-7).‘His attorney
confirmed this; he stated, "I have never gotten the impression that [Petitioner] has any difficulty
understanding English or the legal concepts that I was presenting to him, and I explained every rigftt
that he has as contained in the various colloquies{2018 U.S. Dist. LEXIS 18} and he acknowledged
that he understood those rights." (Id. at 7-8). Petitioner also confirmed that he had not consumed
drugs or alcohol within the past 48 hours, was not prescribed any medication, and was not under the
care of a physician. (Id. at 12). He stated that he was satisfied with the representation of his attorney,
and that he completed the guilty plea form with his attorney's assistance.9 (Id. at 9, 13). Petitioner also
confirmed that he understood the Court's explanation of the elements of first and second degree
murder, and that he understood the charges to which he was pleading guilty. (Id. at 24-27).
Thereafter, the trial court discussed the appellate rights waiver, and the voluntariness of Petitioner's
plea:
The Court: Okay. Now, one of the things that you signed is what's called a written waiver of appeal
rights colloquy. Mr. Charles, will you tell me how that was completed?
Mr. Charles: That was a form that I received from the Commonwealth. I went through every line of
it with him. He understood the - every allegation, every concept contained in the document, and
he agreed to sign it.
The Court: Okay. Is that right, Mr. Htut?
Mr. Htut: Yes, Your Honor.
The Court: This document indicates that you will not be able to{2018 U.S. Dist. LEXIS 19} allege
that your lawyer, Mr. Charles, was ineffective, that he did not - not competent - did not do his job
correctly in his representation of you. Do you understand that?
Mr. Htut: Yes, Your Honor.
The Court: And furthermore as I indicated to you, this colloquy indicates that you will not be able to
seek a commutation from the governor to have your sentence reduced. Do you understand that?

lyccases

7

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

Mr. Htut: Yes, Your Honor.
The Court: Do you want me to review with you in greater detail each and every aspect of this
document?
Mr. Htut: No, Your Honor.
The Court: Okay. Do you feel that you satisfactorily understand it?
:?■

Mr. Htut: Yes, Your Honor.
The Court: Okay. Counsel, do you want me to go through each of the paragraphs with the
defendant or are both of you satisfied that he understands it?
Mr. Charles: I'm satisfied he understands it, Your Honor.
Mr. Luksa: I'm satisfied, Your Honor.
The Court: Okay. Have there been any promises made to you other than what we have talked
about? Any other promise?
Mr. Htut: No, Your Honor.
The Court: Are you doing this of your own free will?
Mr. Htut: Yes, Your Honor.
The Court: Is anyone forcing you to plead guilty?
Mr. Htut: (Shakes head.)
The Court: Are you going it voluntarily?{2018 U.S. Dist. LEXIS 20}
Mr. Htut: Yes, Your Honor.(N.T. 09/02/14 28-30). After this exchange, the trial court found that
Petitioner "tendered a knowing, intelligent, and voluntary plea[.]"10 (Id. at 30).
Having reviewed the appellate waiver form and the written and oral colloquies, the Court finds
Petitioner's waiver and plea were knowing and voluntary. The waiver was clear and unambiguous that
Petitioner was "forever giving up" his rights to file a direct or collateral appeal. See Mabry, 536 F.3d at
238; United States v. Mitchell, No. 15-21-6, 2017 U.S. Dist. LEXIS 177258, 2017 WL 4838841, at *3
(E.D. Pa. Oct. 25, 2017) (plea and waiver were knowing and voluntary when waiver's language was
clear and unambiguous). Petitioner signed the waiver form, expressly acknowledging that he read it,
discussed it with his attorney, "fully [understood] what is set forth by this agreement," and that he was
"knowingly, intelligently, and voluntarily" agreeing to the waiver's terms and conditions. (Waiver of
App. Rights 16, ECF No. 7). Additionally, a review of the guilty plea colloquy confirms that
Petitioner's waiver and plea were knowing and voluntary. The trial court informed Petitioner of the
appellate rights waiver and confirmed that he understood it, explained the waiver at some length, and
assured itself that Petitioner had not been coerced{2018 U.S. Dist. LEXIS 21} before entering into the
plea agreement. See Mabry, 536 F.3d at 238-39; Mitchell, 2017 U.S. Dist. LEXIS 177258, 2017 WL
4838841, at *3 (plea and waiver were knowing and voluntary when district court's colloquy was similar
to colloquy that occurred in the instant case). Thus, the Court finds both the waiver and the plea
containing the waiver were knowing and voluntary. 11
2. Miscarriage of Justice
Having determined that the waiver was knowing and voluntary, the Court must next consider whether
enforcement of the waiver would work a miscarriage of justice under the facts of this case. Mabry, 536

lyccases

8

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

• F.3d at 237. "There may be an unusual circumstance where an error amounting to a miscarriage of
justice may invalidate the waiver."12 Khattak, 273 F.3d at 562. In evaluating whether a miscarriage of
justice would result from enforcement of a waiver, courts should consider'"the clarity of the error, its
gravity, its character (e.g., whether it concerns a fact issue, a sentencing guideline, or a statutory
maximum), the impact of the error on the defendant, the impact of correcting the error on the
government, and the extent to which the defendant acquiesced in the result."' Mabry, 536 F.3d at
242-43 (quoting United States v. Teeter, 257 F.3d 14, 25-26 (1st Cir. 2001)). Allegations that counsel
was ineffective or coercive in negotiating the plea agreement that contained the waiver may rise to a
miscarriage{2018 U.S. Dist. LEXIS 22} of justice. See id. at 243 (citing United States v. Wilson, 429
F.3d 455 (3d Cir. 2005)); see also Glass, 2017 U.S. Dist. LEXIS 121022, 2017 WL 4214145, at *11.
The miscarriage of justice exception should "be applied sparingly and without undue generosity."
Wilson, 429 F.3d at 458 (quoting United States v. Teeter, 257 F.3d 14, 26 (1st Cir. 2001)) (quotation
marks omitted).
Petitioner raises the ineffective assistance of counsel. Specifically, he alleges that counsel was
ineffective because: counsel "failed to fully explain the rights that Petitioner was relinquishing" (Mem.
of Law 6, ECF No. 1 -1); counsel "incorrectly told Petitioner that if he chose to exercise his
Constitutional rights and go to trial, Petitioner's home and property.would be seized . . . ." (id. at 8-9);
and counsel advised him to enter a "lopsided" agreement, in which he "received no benefit" in
exchange for his plea (id. at 1-6; Mem. of Law 53, ECF No. 1). The Commonwealth argues that these
issues would not result in a miscarriage of justice if the collateral attack waiver was enforced. (Resp.
to Pet. 13-20, ECF No. 7). The Court agrees that enforcement of the waiver would not work a
miscarriage of justice under the circumstances Petitioner has alleged. Petitioner's allegations of tineffective assistance of counsel are contradicted by the record.
First, the record shows that counsel adequately explained the rights Petitioner was{2018 U.S. Dist.
LEXIS 23} waiving. The state courts credited trial counsel's testimony that he read and explained the
waiver form to Petitioner. See supra Part III.A.1. Additionally, the waiver form itself indicates that
Petitioner discussed his rights and the waiver form with counsel, and that Petitioner understood the
waiver.13 (See Waiver of App. Rights 5, ECF No. 7); (see also id. H 9) ("I have read this colloquy
and agreement and discussed the same, in its entirety, with my counsel, Dennis Charles, Esquire. I
have no questions regarding the terms and conditions of the agreement and I understand exactly what
is written here.").14
Petitioner's assertion that counsel incorrectly advised him that his home and property would be seized
is similarly contradicted by the record. At the PCRA hearing, the PCRA Court noted that prior to
Petitioner entering his guilty plea, the solicitor filed a petition concerning "whether [Petitioner] was
going to be required to pay the costs of the public defender." (N.T. 01/05/16 at 68). However, the
solicitor ultimately withdrew the petition on July 30, 2014, and "the matter proceeded without anybody
making a claim against [Petitioner's]{2018 U.S. Dist. LEXIS 24} property." (Id. at 68, 71). This issue
surrounding Petitioner's house was "removed prior to [Petitioner] tendering the guilty plea and[ ]
waiver[ ] of his appeal rights." (Id. at 69). Moreover, counsel was specifically asked whether he
advised Petitioner that he would lose his house if he proceeded to trial, and denied ever giving
Petitioner such advice:
Q: You never threatened him and said, if you go to trial or if you don't plead, you're going to lose
your house?
A: I've never said anything like that to him. Why would I say that?
Q: Right, because the house issue had been resolved prior to the plea?

lyccases

9

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

j-

A: Yes. Even if it hadn't, I don't know what's going to happen with regard to his house. I mean, my
concern of defending him is to accumulate the best evidence that would allow me to vigorously
defend the charges and to zealously defend him, and that's what I did do.

'

The decision was made by him to take the Commonwealth's offer of a plea to second degree
murder. He was fully aware of what he was doing. There was never any threat or coercion or
anything of that nature on my part towards him, and I certainly didn't bring up the house as some
type of tool to leverage him into this guilty plea.(N.T. 01/05/16 at 69-70);{2018 U.S. Dist. LEXIS
25} (see also id. at 72, 74) (counsel testifying that "the house wasn't an issue" in his discussions
with Petitioner). Although the PCRA Court did not explicitly address the "house issue" in its
1925(a) Opinion, it found counsel's testimony to be "credible and consistent," and that Petitioner
was not "forced [to plead guilty] by counsel," but rather, "made an informed decision to plead guilty
and waive his appeal rights." PCRA 1925(a) Op., 2016 Pa. Dist. & Cnty. Dec. LEXIS 4 at *11-12.
The Court affords these findings a presumption of correctness, as Petitioner has not rebutted
them with clear and convincing evidence. 28 U.S.C. § 2254(e)(1). Moreover, in the waiver form,
written guilty plea colloquy, and oral guilty plea colloquy, Petitioner confirmed that his decision to
plead guilty and waive his appellate rights was voluntary and not coerced. (See Waiver of App.
Rights U 8, ECF No. 7) ("Other than the terms and conditions set forth in this agreement, nobody
has promised me anything or forced me or threatened me to accept the terms of this agreement.
I, myself, have decided to accept all terms and conditions of this agreement."); (see also Guilty
Plea Colloquy ffl] 34-37, SCR No. 22; N.T. 09/02/14 at 29-30).
Finally, Petitioner's claim that he was "duped" into{2018 U.S. Dist. LEXIS 26} pleading guilty to ,
second degree murder because he did not face a realistic chance of being sentenced to death, and
that he "received no benefit" in exchange for his plea (Mem. of Law 4-6, ECF No. 1-1) is likewise
contradicted by the record. Petitioner was initially charged with criminal homicide, "a classification that
includes murder one and murder two[.]" (N.T. 09/02/14 at 3-4). Thus, if Petitioner had proceeded to
trial, he faced the possibility of a first degree murder conviction and death sentence. 15 (Waiver of
App. Rights ffi[ 2-3, ECF No. 7). Indeed, the Commonwealth filed a Notice of Aggravating
Circumstances, stating its intention to seek the death penalty if the jury returned a verdict of guilty to
the crime of first degree murder. (Not. of Aggravating Circumstances, SCR No. D3). If that occurred,
the Commonwealth intended to offer evidence of the following aggravating circumstances at the,
sentencing hearing:
(a) [Petitioner] committed a killing while in the perpetration of a felony. 42 Pa. Cons. Stat. §
9711(d)(6).
(b) In the commission of the offense [Petitioner] knowingly created a grave risk of death to another
person in addition to the victim of the offense. 42 Pa. Cons. Stat. § 9711(d)(7).
(c) At the time of the killing [Petitioner]{2018 U.S. Dist. LEXIS 27} was subject to a court order
restricting [Petitioner's] behavior toward the victim pursuant to 23 Pa. Cons. Stat. Ch. 61 (relating
to protection from abuse) designed to protect the victim from [Petitioner], 42 Pa. Cons. Stat. §
9711 (d)(18).(Not. of Aggravating Circumstances, SCR No. D3). However, in exchange for his
guilty plea, the charge was amended to second degree murder, and Petitioner pleaded guilty to
that count. (N.T. 09/02/14 at 4; Waiver of App. Rights ffl] 1,6, ECF No. 7).
Despite Petitioner's assertions to the contrary, Petitioner could have been convicted of first degree
murder and sentenced to death. The evidence in this case established that: Petitioner was aware that
a PFA order prevented him from being in contact with his wife or children; in violation of the PFA
order, Petitioner entered his wife's house with an unloaded firearm; when his children and wife ran

lyccases

10

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

r

*
*;

from him, Petitioner loaded a magazine into his firearm; Petitioner then chased his wife and children
and shot his wife in the head; and Petitioner practiced firing a weapon at a gun range the day before
the murder. (N.T. 09/02/14 at 14-23). Moreover, the PCRA Court discussed the aggravating factors at
issue in Petitioner's case and observed:{2018 ll.S. Dist. LEXIS 28} "So was the death penalty
realistic here? Absolutely, it was realistic." (N.T. 01/05/16 at 62-63). Accordingly, Petitioner's allegation
that he was "duped" into pleading guilty to second degree murder, and that he "received no benefit" in
exchange for his plea is contradicted by the record.
Thus, Petitioner's allegations of ineffective assistance of counsel would not result in a miscarriage of
justice if the waiver is enforced.
IV. CONCLUSION
As fully explained herein, I respectfully recommend that Petitioner's petition for writ of habeas corpus
be denied. 16
Therefore, I make the following:
r RECOMMENDATION
AND NOW this 16th day of July, 2018, it is respectfully RECOMMENDED that the petition for writ of
habeas corpus be DENIED without the issuance of a certificate of appealability.
Petitioner may file objections to this Report and Recommendation. See Local Civ. Rule 72.1. Failure
to file timely objections may constitute a waiver of any appellate rights.
BY THE COURT:
Isl Lynne A. Sitarski
LYNNE A. SITARSKI
UNITED STATES MAGISTRATE JUDGE
Footnotes

1 I have substituted Mark Capozza, who is the current Superintendent of SCI Fayette, as the ^
respondent in this case. See Rules Governing Section 2254 Cases, Rule 2 (requiring the current
custodian to be named as respondent).
2
Respondents have submitted the relevant transcripts and portions of the state court record ("SCR") in
hard-copy format. Documents in the state court record will be cited to as "SCR No._." The Court has
also consulted the Court of Common Pleas criminal docket sheet for Commonwealth v. Htut, No:
CP-39-CR-0000308-2014 (Lehigh Cnty. Com. PI.), Criminal Docket, available at
https://ujsportal.pacourts.us/DocketSheets/CPReport.ashx?docketNumber=CP-39-CR-0000308-2014
(last visited July 16, 2018).
3
Counsel's no-merit brief raised the claim that "trial counsel [was] ineffective for failing to explain to
[Petitioner] that he was giving up his rights to file a PCRA petition against his trial attorney. This
resulted in an unknowing and involuntary waiver of right to appeal." {2018 U.S. Dist. LEXIS 6}Htut,
2017 Pa. Super. Unpub. LEXIS 536 at *4. Petitioner's pro se brief also "challenge^] the validity of his
waiver of appeal rights," and "raise[d] numerous additional claims regarding, inter alia, the

lyccases

11

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

voluntariness of his guilty plea and the ineffectiveness of both plea counsel and PCRA counsel." 2017
Pa. Super. Unpub. LEXIS 536 at *4 n.4; see also Br. for Appellant, Commonwealth v. Htut, 161 A.3d
375, 2017 Pa. Super. Unpub. LEXIS 536, *4, 2016 WL 6673466, at *5-6 (Pa. Super.) [hereinafter
"PCRAApp. Br."].
4
Pennsylvania and federal courts employ the prisoner mailbox rule, pursuant to which a pro se petition
is deemed filed when given to prison officials for mailing. See Perry v. Diguglielmo, 169 F. App'x 134,
136 n.3 (3d Cir. 2006) (citing Commonwealth v. Little, 716 A.2d 1287 (Pa. Super. 1998)); Burns v.
Morton, 134 F.3d 109, 113 (3d Cir. 1998); Commonwealth v. Castro, 2001 PA Super 17, 766 A.2d
1283, 1287 (Pa. Super. 2001). Petitioner certified that he gave his petition to prison officials on
September 1, 2017, and it will be deemed filed on that date. (Hab. Pet. 22, ECF No. 1).
5
Petitioner specifically alleges that counsel "failed to fully explain the rights petitioner was relinquishing"
and provided "legally incorrect advice." (Hab. Pet. 7, 15, ECF No. 1; Mem. of Law 6-7, ECF No. 1-1).
6
Because the waiver's enforceability is dispositive of Petitioner's claims, the Court will only address
Petitioner's claims to the extent necessary to assess the waiver's enforceability.
7
)

Petitioner has not rebutted the presumption of correctness afforded to these findings with "clear and
convincing evidence." Rather, Petitioner argues that the state courts' rulings "resulted in a miscarriage
of justice" because the state courts cited Commonwealth v. Barnes, 455 Pa. Super. 267, 687 A.2d
1163 (Pa. Super. 1996) in finding Petitioner's waiver was voluntary. (Mem. of Law 2, ECF No. 1-1).
The state courts' decisions are not evidence.
8
Petitioner had a Burmese interpreter at the hearing. (N.T. 09/02/14 at 3).
9
Petitioner completed a written Guilty Plea Colloquy on September 2, 2014. (Guilty Plea Colloquy, SCR
No. 22). Therein, he indicated, inter alia, that: he understood the charges against him; he was giving
up his right to a trial and the presumption of innocence; he was satisfied with the representation of his
attorney; he was not forced to plead guilty; and he was pleading guilty of his own free will. (See id.).
10
After finding that Petitioner tendered a knowing, intelligent, and voluntary plea, the trial court again
explained to Petitioner that he "will not be permitted to appeal for any reason/purpose." (See N.T.
09/02/14 at 47-48).
11
Petitioner argues that the waiver is "nonsensical, unworkable, and unconstitutional," and that he could
not have knowingly waived his ability to raise claims before he knew whether such claims existed.
(Mem. of Law 53-57, ECF No. 1; Traverse 1-4, ECF No. 11). The Third Circuit rejected a similar
argument in Khattak. There, the Third Circuit rejected the argument that "waiver-of-appea! provisions
are void as contrary to public policy, because defendants cannot ever knowingly and voluntarily waive
their rights to appeal future errors." Khattak, 273 F.3d at 560. The Third Circuit observed that
"[wjaivers of the legal consequences of unknown future events are commonplace." Id. at 561. The
Third Circuit also noted that by waiving the right to appeal, a defendant necessarily waives the
opportunity to raise a meritorious issue that may arise. See id. ("[B]y waiting the right to appeal, a
defendant necessary waives the opportunity to challenge the sentence imposed, regardless of the

lyccases

12

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

merits.").

12
Some appellate courts have delineated specific instances in which waiver provisions may be found
invalid, such as where: the sentence was imposed in excess of the maximum penalty provided by law;
the sentence was based on a constitutionally impermissible factor such as race; the defendant claims
his plea agreement was the product of ineffective assistance of counsel; or the waiver broadly
exchanges the right to appeal a specific sentencing range. See Khattak, 273 F.3d at 562-63.
However, the Third Circuit has chosen "not to earmark specific situations." Id. at 563.

13
Moreover, the trial court also explained the waiver to Petitioner, and the waiver form itself explained
the rights that Petitioner was waiving. See supra Part III.A.1.

14
Petitioner has asked this Court to consider an article published in Pennsylvania Law Weekly, in which
Samuel C. Stretton suggests a criminal defendant presented with a collateral appeal waiver "is not in a
position to really appreciate what rights they may be giving up," unless they are advised of the need
for, and given an opportunity to consult with, independent counsel. (Ex. A to Mot. to Consider Further
Argument, ECF No. 13). However, Mr. Stretton notes that "[t]here are apparently no court decisions on
this particular issue." (Id.). In the apparent absence of case law on this specific issue, and given the
record in Petitioner's case, the Court continues to find that counsel adequately advised Petitioner of
the rights he was waiving. The Court also notes that courts have declined to find waivers invalid based
on arguments that such waivers presented a conflict of interest. See, e.g., United States v. Mitchell,
538 F. App'x 201, 203 (3d Cir. 2013); United States v. Gardner, No. 14-1441, 2015 U.S. Dist. LEXIS
103762, 2015 WL 4714927, at *5-7 (W.D. Pa. Aug. 7, 2015).

15
"A criminal homicide constitutes murder of the first degree when it is committed by an intentional
killing." 18 Pa. Cons. Stat. § 2502(a). An "intentional killing" is a "[kjilling by means of poison, or by
lying in wait, or by any other kind of willful, deliberate and premeditated killing." 18 Pa. Cons. Stat, §
2502(d).

16
Petitioner also filed a "Motion for this Court to Consider Further Argument" (ECF No. 13), which this
Court construes as a Motion to Amend and grants in an Order accompanying this Report and
Recommendation. The Court has considered Petitioner's "further argument" in this Report and
Recommendation. See supra n. 14.

lyccases

13

©2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

,iV

■

